•v-ii

No:

In the
Supreme Court of the United States

VICTOR SANTANA-GONZALEZ,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

CERTIFICATE OF FILING

I, Victor Santana-Gonzalez, do hereby certify under penalty of perjury pursuant
to Title 28 U.S.C. § 1746, that on July \Tlyf2020 I placed my copy of my
petition for a Writ of Certiorari to the United States Supreme Court in the Federal
FCI Butner Low - Legal Mail Box for mailing with sufficient First Class Postage.
Accordingly, the Writ of Certiorari was timely mailed to this Court for filing prior
to the filing deadline.

I also served the United States Solicitor General with a copy of the brief as
required per Rule 29 of the Supreme Court rules.
Done this ^l</ciay of July 2020.

Victor Santana-Gonzalez
Register Number: 66703-018
FCI Butner Low
P.O. Box 999
Butner, NC 27509

